                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGAnONS

                                                  CLOSEOUT lVIEl\1l0RANDUIVl

      Case Number: 108020017 .                                                                     ,Page 1 of 1



              We received an allegation regarding possible transfer of infonnation and mathematical codes to
              Chinese nationals by Subject.! The allegation concerned Subject's research under a NOAA award 2,
              but Subject also has one active NSF award 3 and two pending NSF awards4 in the same general
              research area. A review of facts and applicable law and policy indicates that the research Subject is
              engaged at NSF (and at NOAA, while the NOAA award was active) is "fundamental" in nature and
              not subject to any restrictions on dissemination. There is no indication of any other issues requiring
              investigation.


              Accordingly, this case is closed.




I,




               IRedacted
              2 Redacted
              3 Redacted
              4 Redacted




     NSF OIG Fonn 2 (11102)
